Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MEDICARE’S REIMBURSEMENT FOR
 INTERPRETATIONS OF HOSPITAL
    EMERGENCY ROOM X-RAYS




                JULY 1993
                       OFFICE OF INSPECTOR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspectionsconducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’SOffice of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilitiesand are intended to provide independentassessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’SOffice of Investigations(01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigativeefforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections)that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendationscontained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectivenessof departmental programs. This report was prepared in the New York regional office
under the direction of Thomas F. Tully, Regional Inspector General and Alan S. Meyer, Deputy
Regional Inspector General. Project staff included:

REGION II                                      HEADQUARTERS

Joseph J. Benkoski, Project Leader            Wm. Mark Krushat
Joseph J. Corso, Jr,                          Wayne A. Powell
Lucille M. Cop, RN                            Brian P. Ritchie
William J. Counihan                           Barbara R. Tedesco



To obtain a copy of this report, call the New York Regional Office at (212) 264-1998
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MEDICARE’S REIMBURSEMENT FOR
 INTERPRETATIONS OF HOSPITAL
    EMERGENCY ROOM X-RAYS




           JULY 1993   0EI-02-89-01490

              EXECUTIVE                            SUMMARY

PURPOSE

To assess the appropriateness of Medicare policy permitting reimbursement for
reinterpretations of the same x-ray for emergency room (ER) cases.

BACKGROUND

In a typical case, an x-ray of a patient treated in an ER is interpreted both by the treating
physician and by a radiologist. The latter reinterpretation often takes place after the
patient is discharged.

This inspection evaluated the Medicare policy which allows payment to each physician for
their interpretations. According to Section 2020G of the Medicare Carriers Manual
(MCM) the service of the radiologist, even if performed after the patient is discharged,
!1.. . almost always constitutes patient care and, thus, would qualify as a physician’s
service. ” Medicare’s reasoning is that the radiologist’s reinterpretation is a specialist’s
evaluation and could affect the course of treatment initiated or cause a new course of
treatment to begin.

The inspection consisted of a review of 356 medical records and telephone interviews with
ER and radiology department directors at 18 hospitals in nine States. We also had
discussions with directors of residency training programs in Emergency Medicine and with
representatives of Internal Medicine and Family Practice specialties regarding training in
x-ray interpretations in residency programs.

FINDINGS

X-RAY REINTERPRETATIONS BY RADIOLOGISTS DID NOT CHANGE
PRESCRIBED TREATMENTS BY EMERGENCY ROOM PHYSICIANS

We were able to identify 158 cases (44 percent) in the sample of 356 cases where medical
records clearly indicate that radiologists reinterpreted x-rays at least one day after patients
had been discharged. We found that these reinterpretations had no effect on the
treatments provided by ER physicians. No one among this group was recalled for further
evaluation based upon the reinterpretations. The experience with these reinterpretations
raises questions regarding Medicare’s policy assumption that such a reinterpretation
“almost always constitutes patient care. ”

Of the remaining 198 medical records in the sample, only 22 contain clear documentation
that interpretations by radiologists were made available to the ER physician prior to the
patient’s discharge. In only one instance, in this group of 198 cases, was there
documentation that the ER physician had specifically requested an interpretation by a
radiologist before determining a plan of care; this, in fact, was the only such request
among all 356 sample records. The remaining 176 records do not document whether or
not these interpretations occurred before or after patients were discharged. However, ER
directors at the 18 sample hospitals estimate, that on the average, three-quarters of the
interpretations by radiologists are performed after patients are discharged. As was the
case with interpretations by radiologists after patients had been discharged, no one among
this group was recalled to the hospital or referred elsewhere.

MOST PHYSICIANS WHO TREAT PATIENTS IN EMERGENCY ROOMS COME
FROM THREE MEDICAL SPECIALTIES; THEY RECEIVE TRAINING IN
INTERPRETING X-RAYS

Physicians specializing in Emergency Medicine, Internal Medicine and Family Practice
represent 89 percent of the ER physicians in our sample. The majority of ER physicians
(68 percent) specialize in Emergency Medicine. Physicians specializing in Internal
Medicine represent 11 percent of sample cases; those in Family Practice represent 10
percent.

Physicians specializing in Emergency Medicine appear to receive substantial training in
x-ray interpretation. We were informed by several directors of residency programs in
Emergency Medicine that training in interpreting x-rays is an integral part of their
residency programs. Physicians specializing in Internal Medicine and Family Practice also
receive training in x-ray interpretation, according to representatives of the Accreditation
Council for Graduate Medical Education’s Residency Review Committee on Internal
Medicine and of the Board of Family Practice.

RECOMMENDATION

In view of our finding that reinterpretations of x-rays by radiologists after patients had
been discharged from emergency rooms: (1) did not result in the recall of patients; (2) did
not affect the course of treatment initiated or cause a new course of treatment to begin;
and (3) did not appear to constitute patient care, HCFA should:

       Pay for reinterpretations of x-rays only when attending physicians specifically
       request a second physician’s interpretation in order to render appropriate
       medical care before the patient is discharged. Any other reinterpretation of
       the attending physician’s original interpretation should be treated and
       reimbursed as part of the hospital’s quality assurance program. The HCFA
       should implement this recommendation through either regulation or by seeking
       legislation as appropriate.

We project that a minimum of $20.4 million was paid for reinterpretations in 1990 for the
38 sampled HCPCS codes. Our projection does not take into consideration the apparently
infrequent instances in which radiologists’ interpretations are specifically requested by the
treating physician prior to treatment.




                                              ii
AGENCY COMMENTS AND OIG RESPONSE

We received comments on this report from HCFA. We met with HCFA staff to discuss
their comments and offer additional information. As a result, HCFA agreed to share
copies of our draft report with members of the Technical Advisory Committee on National
Coverage Issues which would consider the report’s recommendations at its next quarterly
meeting.

The HCFA noted that its current policy on emergency room x-rays is based on three
assumptions: (1) reinterpretations almost always constitute patient care; (2) radiologists are
recognized experts, therefore, x-rays should be read by them; and (3) the qualifications of
the interpreting physician are more important than the exact timing of the interpretation in
determining whether a substantive physician service has been provided. Our findings
question all three assumptions and are the basis for our recommendation that a policy
based on these assumptions be revised. Based upon our finding that in no case did
radiologists’ interpretations affect the course of treatment by the ER physician, we
question whether reinterpretations “almost always constitutes patient care. ” We also
found that other physician specialists believe they are qualified to interpret x-rays.

In its comments, the HCFA also raised several concerns, including the medical necessity
of the services provided to patients in our sample and the sharing of radiologists’
interpretations with attending physicians. These concerns and OIG’S responses are
detailed in an expanded comments and response section in the report. The complete text
of HCFA’S comments appears in Appendix A.




                                              ...
                                              111
                     TABLE                 OF        CONTENTS

                                                                                                     PAGE

EXECUTIVE SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1



FINDINGS

 Reinterpretations Of X-rays Did Not Affect Patient Care                    . . . . . . . . . . . . . . .    5


 Emergency Room Physicians Receive

 X-ray Interpretation Training.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               6



RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


    Agency Comments AndOIGResponse                    . . . . . . . . . . . . . . . . . . . . . . . . . .    7



APPENDICES


A: Comments       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1


B: Projected Savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1


C: Confidence Intervals For Savings Projections . . . . . . . . . . . . . . . . . . . . . C-1

                          INTRODUCTION

PURPOSE

To assess the appropriateness of Medicare policy permitting reimbursement for
reinterpretations of the same x-ray for emergency room (ER) cases.

BACKGROUND

An Emergency Room Visit

An elderly man, while putting his lawn mower away, experienced chest pains, shortness
of breath and dizziness, and fell heavily upon his left wrist. He was driven by his wife to
the emergency room (ER) of the local hospital. While there, he was examined by an ER
physician who ordered an x-ray and other tests. This physician, upon review of the x-ray
film, diagnosed a simple fracture and applied a splint. Finding everything else normal, he
gave instructions to the patient and discharged him.

The following day, in keeping with hospital policy, a radiologist reinterpreted the x-ray
film. She prepared a report for the patient’s medical record confirming the ER
physician’s diagnosis. Several days later, this same patient’s x-ray was selected for
review by a second radiologist as part of the hospital’s quality assurance program.

How Medicare Pays

The fictional story above, typical of the manner in which Medicare patients receive
treatment for injuries in hospital emergency rooms, would have resulted in the following
claims actions.

The ER physician and the radiologist who confirmed the diagnosis would have submitted
separate bills to a Medicare carrier. The radiologist would be paid for her interpretation
based on a radiology fee schedule. The ER physician’s bill for his services would not,
however, contain a separate charge for his x-ray interpretation. This is because Medicare
considers its payment for his interpretation to be part of the attending physician’s overall
workup and treatment of the patient (Medicare Carrier Manual Section 2020G). This
same section does permit payment to the first radiologist, stating that:

       . . . when a hospital radiologist interprets an x-ray that has already been
       interpreted by another physician, that interpretive service almost always
       constitutes patient care . . . and the radiologist’s findings could affect the
       course of treatment initiated or cause a new course of treatment to begin.
       The fact that the particular patient was not on the hospital premises at the
       time the radiologist interpreted the x-ray is not controlling in deciding
       whether there was a physicians service, since the patient may be recalled.
       If on the other hand the radiologist is interpreting the x-ray for “quality
       control” purposes . . . the service should be considered a hospital service
       reimbursable under Part A of the Medicare program.

The carrier would have paid the ER physician and the first radiologist 80 percent of

Medicare’s allowed charge. Both physicians would have billed the patient for Medicare’s

20-percent coinsurance amount.


The hospital would have sent its bill for providing emergency room services to a Medicare

intermediary. These services include such items as salaries of employees, facility

maintenance, medical supplies and equipment. The intermediary’s payment to the hospital

would cover the costs associated with the services of the second radiologist. These

services would be treated as administrative costs relating to the hospital’s quality

assurance program.


How much Medicare Pays

In 1990, Medicare allowed charges for all outpatient department (OPD) interpretations,
including the ER, amounted to $175 million. Medicare data does not separate charges of
radiologists for interpretations of ER x-rays from their charges for other OPD
interpretations. The costs hospitals incur for their quality assurance programs are not
separately identified and are reimbursed as a part of the reasonable costs included in OPD
cost reports.

Related Study

A study of 23,500 x-rays, conducted from October 1984 to September 1985 at George
Washington University Medical Center, evaluated patient care outcomes in those instances
where post-discharge radiology department interpretations differed from ER physician
interpretations. As reported in the Journal of the American Medical Association, the
study found an overall error rate of 1.8% (424 patients) in the accuracy of ER
interpretations. There were no undesirable patient care outcomes as characterized by
preventable death, permanent loss of function, suboptimal restoration, or prolonged
recovery identified by delayed radiological diagnosis.

Medical Societies’ Positions

The policy of the American College of Emergency Physicians is that emergency
physicians should initially interpret and record the results of diagnostic studies and tests
they order for which they are trained and competent to interpret. When appropriate, such
interpretations should be made in consultation with other specialists. The College notes
that ER physicians are entitled to charge and be reimbursed for these services.

The American College of Radiology considers the radiologist responsible for the
radiological services within the hospital. This responsibility cannot be delegated to other
physicians. The College feels that regardless of when the interpretation is available to the



                                               2
attending physician, the radiologist’s interpretation of previously interpreted ER x-rays
constitutes patient care and is compensable as a physician service.

METHODOLOGY

The inspection consisted of a review of 356 medical records from 311 hospitals, telephone
interviews with ER and radiology department directors at 18 hospitals in nine States and
discussions with directors of programs offering residency training in Emergency Medicine.
We also spoke with representatives of Internal Medicine and Family Practice specialties
regarding training in x-ray interpretations in residency programs.

This study examined a random sample of cases where Medicare paid for interpretations by
radiologists of x-rays on ER patients. In this report, these services are referred to as
“reinterpretations,” when performed after the patient was discharged from the ER. The
ER cases were identified among all OPD claims by matching ER visit codes with 38 codes
for x-ray interpretations occurring within five days of the ER visit. This time lapse match
was established based on preinspection findings that interpretations by radiologists
frequently occur after patients are discharged. The 38 procedures cover several anatomic
sites: head and neck, chest, spine and pelvis, and upper and lower extremities. Thirty-six
of these diagnostic procedures deal with skeletal traumas; the other two were x-rays of the
chest which may or may not be related to chest injuries. The procedures were chosen
because they represent x-rays commonly taken in hospital ERs. We obtained
reimbursement data on the 38 codes in order to calculate projected savings.

A multi-stage sampling technique was used. The first stage of this sample used 1990
BMAD data to randomly select ten carriers, with replacement, proportionate to the total
number of cases in each carrier. The second stage originally called for a minimum of 30
cases to be randomly selected from each of the ten carriers to assure adequate precision.
However, pre-inspection data indicated that oversampling was necessary because many of
the ER patients would not have an outpatient bill associated with every physician bill due
to some ER patient admissions as inpatients. Therefore, based on our pre-inspection
calculations, 73 cases were randomly selected from each of the ten carriers (730 total
cases).

Outpatient records were then obtained from the 1990 Medicare Automated Data Retrieval
System (MADRS) for the ten sampled carriers. These records enabled us to eliminate
cases where the patient had an inpatient admission immediately following the emergency
room visit. The 730 sample cases were then compared to the MADRS data. In order to
allow for delays in billing information and billing errors, we decided that any outpatient
department bill with a date of service within three days of the ER physician’s bill was a
valid match. This comparison reduced the sample to 452 cases which had a matching
outpatient department bill within three days of the emergency department service. These
452 cases constituted the study sample.

We then requested medical records from the 311 hospitals where the x-rays were taken
and received 404 records, for an 89 percent response rate. We did not include 48 of the


                                              3
404 records in the study because either the records were incomplete (12) or the ER
patients (36) had been admitted as inpatients. Hospitals also provided the medical
specialty of the attending ER physician for the sample cases.

We abstracted and reviewed data from the remaining 356 medical records. This review
included the frequency of patients recalled to the hospital based on radiologists’
reinterpretations of x-rays and whether subsequent evaluations resulted in changes in
patients’ courses of treatment.

In a separate data collection activity, nine States with the largest number of OPD x-ray
interpretations were identified. A purposive sample of 18 hospitals (two in each State)
based on bed size was selected and their ER and radiology department directors were
interviewed by telephone. Our discussions in November and December 1991 focused on
(1) how often radiologists interpret x-rays before patients are discharged and how often
after discharge, and (2) the frequency of recalling discharged patients for further
evaluation based on these delayed reinterpretations by radiologists.

We wrote to the American College of Radiology and the American College of Emergency
Physicians, asking them to designate someone who could provide their views on the
respective roles of ER and radiology departments in interpretation of ER x-rays. Neither
organization designated a spokesperson, but they did provide their written positions.

Lastly, discussions were held with directors of five programs offering residency training
in Emergency Medicine and with representatives of national accreditation organizations for
Internal Medicine and Family Practice specialties, regarding training in x-ray
interpretations in residency programs.




                                             4
                                  FINDINGS

X-RAY REINTERPRETATIONS BY RADIOLOGISTS DID NOT CHANGE
PRESCRIBED TREATMENTS BY EMERGENCY ROOM PHYSICIANS

All Instances Where Patients Were Clearly Discharged Before Reinterpretah”on Do Not
Appear To Constitute P~”ent Care

We identified 158 cases where medical records clearly indicate that radiologists
reinterpreted x-rays after patients were discharged. These reinterpretations had no effect
on the treatments provided by emergency room physicians. The medical records of these
158 patients (44 percent) in the sample of 356 records, document that the reinterpretations
of x-rays by radiologists occurred at least one day after patients had been discharged. No
one among this group was recalled to the hospital, or referred elsewhere, for finther
evaluation of their condition based upon the reinterpretations by radiologists.

The experience with these reinterpretations raises questions regarding Medicare’s policy
assumption that such a reinterpretation “almost always constitutes patient care. ” Our
analysis is supported by the ER directors at the 18 sample hospitals who estimate that, on
the average, less than two percent of radiologists’ reinterpretations result in recall of
patients for further evaluation of the conditions for which they sought care.

Most Instances Where Patients Were Discharged On The Same Day As The
Interpretation Were Probably Interpreted After Discharge And Appear Not To Constitute
Patient Care

Of the remaining 198 medical records in the sample, only 22 contain clear documentation
that interpretations by radiologists were made available to the ER physician prior to the
patient’s discharge. In only one instance, in this group of 198 cases, was there
documentation that the ER physician had specifically requested an interpretation by a
radiologist before determining a plan of care; this is the case with all 356 sample records.

The remaining 176 records indicate either that a radiologist interpreted x-rays on the same
day of treatment (160), or the date of interpretation was not recorded (16). There is no
indication whether or not these 176 interpretations occurred before or after the patients
were discharged. However, the ER directors at the 18 sample hospitals estimate, on the
average, that three-quarters of all interpretations by radiologists are performed after
patients are discharged. This suggests that a majority of these 176 interpretations were
probably performed post-discharge. As was the case with interpretations by radiologists
clearly documented as having occurred after patients were discharged, no one among this
group of 176 patients was recalled to the hospital or referred elsewhere.




                                              5
MOST PHYSICIANS WHO TREAT PATIENTS IN EMERGENCY ROOMS COME
FROM THREE MEDICAL SPECIALTIES; THEY RECEIVE TRAINING IN
INTERPRETING X-RAYS

Physicians specializing in Emergency Medicine, Internal Medicine and Family Practice
represent 89 percent of the ER physicians in our sample. The majority of ER physicians
(68 percent) specialize in Emergency Medicine. Physicians specializing in Internal
Medicine represent 11 percent of sample cases; those specializing in Family Practice
represent 10 percent.

In response to our questions about the training that physicians in these three specialties
received in x-ray interpretation in residency programs, we learned the following.

Physicians specializing in Emergency Medicine appear to receive substantial training in
x-ray interpretation. Directors of five residency programs in Emergency Medicine
reported that training in interpreting x-rays is an integral part of their residency programs.
While each program was not structured in the same manner, training characteristically
consisted of working in the radiology department for about a month, reading x-rays in the
ER with trained ER physicians and attending didactic lectures on radiology.

Physicians specializing in Internal Medicine and Family Practice also receive training in
x-ray interpretation. A representative of the Accreditation Council for Graduate Medical
Education indicated that a typical residency in Internal Medicine consists of a three-month
assignment to the ER in two- to four-week blocks over the course of three years. During
these periods training in x-ray interpretation is provided by an experienced ER physician.
A representative of the Board of Family Practice indicated that, while each residency
program is different, it provides “ample opportunity” to learn to read x-rays. Some
programs have residents assigned to the radiology department for varying amounts of
time.




                                               6
                    RECOMMENDATIONS

In view of our finding that reinterpretations of x-rays by radiologists after patients had
been discharged from emergency rooms: (1) did not result in the recall of patients; (2) did
not affect the course of treatment initiated or cause a new course of treatment to begin;
and (3) did not appear to constitute patient care, HCFA should:

       Pay for reinterpretations of x-rays only when attending physicians specifically
       request a second physician’s interpretation in order to render appropriate
       medical care before the patient is discharged. Any other reinterpretation of
       the attending physician’s original interpretation should be treated and
       reimbursed as part of the hospital’s quality assurance program. The HCFA
       should implement this recommendation through either regulation or by seeking
       legislation as appropriate.

We project that a minimum of $20.4 million was paid for reinterpretations in 1990 for the
38 sampled HCPCS codes. Our projection does not take into consideration the apparently
infrequent instances in which radiologists’ interpretations are specifically requested by the
treating physician prior to treatment. Nevertheless, we consider this to be a conservative
estimate due to (1) difficulties in establishing a universe of ER x-ray interpretations by
radiologists encountered in drawing our sample and (2) to the fact that our projection is
based on only 38 interpretation codes. It is probable that substantially more dollars are
involved. During this same period Medicare allowed charges for all outpatient department
interpretations, including the ER, amounted to $175 million.

AGENCY COMMENTS AND OIG RESPONSE

We received comments on this report from HCFA. We met with HCFA staff to discuss
their comments and offer additional information. As a result, HCFA agreed to share
copies of our draft report with members of the Technical Advisory Committee on National
Coverage Issues which would consider the report’s recommendations at its next quarterly
meeting. A summary of HCFA’s comments and our response appears below. The
complete text of HCFA’s comments appears in Appendix A.

The HCFA suggests that if x-rays were not medically necessary it would be unlikely that
either the ER physician or the radiologist would have identified any medical problem
when reading the x-rays. Our review of medical records did not examine the medical
necessity of x-rays ordered for ER patients. Rather, it focused on whether radiologists’
interpretations affected patient care; in no instance did this occur regardless of patients’
reasons for seeking medical attention. Our sample consisted of 164 cases (40 percent)
covering diagnostic procedures of several anatomic sites which normally deal with skeletal
traumas. The remaining 212 cases (60 percent) were chest x-rays of which 34 represented
traumas. Regarding non-trauma chest x-rays, we reviewed a subsample of 30 cases.


                                              7
Twenty-five patients came to the ER with complaints of chest pain. The remaining five
patients were seen for conditions other than chest conditions; one could question the
necessity of these x-rays.

The HCFAcomrnents state that results of radiologists’ interpretations possibly were
forwarded to patients’ attending physicians rather than to ER physicians. While this may
have been the case in some instances, ourreview ofrecords compared radiologists’
interpretations with those of ER physicians. The fact that results may have been sent to
private physicians would not alter our comparative analysis. We found that radiologists’
interpretations confirmed those of ER physicians in all cases.

The HCFA also noted that its current policy is based on three assumptions: (1)
reinterpretations almost always constitute patient care; (2) radiologists are recognized
experts, therefore, x-rays should be read by them; and (3) the qualifications of the
interpreting physician are more important than the exact timing of the interpretation in
determining whether a substantive physician service has been provided. Our findings
question all three assumptions and are the basis for our recommendation that a policy
based on these three assumptions be revised. Based upon our finding that in no case did
radiologists’ interpretations affect the course of treatment by the ER physician, we
question whether reinterpretations “almost always constitutes patient care. ” We also
found that other physician specialists believe they are qualified to interpret x-rays.

The HCFA notes that our recommendation to limit coverage of radiologists’
interpretations to those performed before a patient is discharged would discriminate
against small- and medium-sized hospitals which do not have radiologists available 24
hours a day. We cannot respond directly to this concern, as we did not include the
availability of radiologists in our study. However, we again note that no reinterpretations
in our random sample resulted in a change in patient care.

The HCFA points out that it would be difficult to enforce our recommendation on a
prepayment basis. We note that HCFA has overcome other prepayment difficulties by
using such techniques as code modifiers and identification of referring physicians for
certain services in order to make coverage determinations. The HCFA can also enforce
this policy, as it does many policies, on a post-payment basis using focused medical
review,

The HCFA states that our savings estimate appears to assume that Medicare would not
pay ER physicians separately for interpretations if there were no payment to radiologists.
This is a correct assumption. Medicare is currently paying for ER physicians’
interpretations as part of the total work-up of the patient.




                                              8
   APPENDIX         A

COMMENTS ON THE DRAFT REPORT




            A-1
....                                                                        Health Care
       DEPARTMENT OF HEALTHZ?L
                             HUMAN SERVICES                                 Financing Admmistfatlon




                                                                            Memorandum

        w-         Im
           i “am Toby, Jr.
         Acting Admkistrato~

                                /’ F
                                     .                                            .




         Office of Inspector Gene.ml (OIG) Draft Report: “kkdicare’s Reirnbursem@               for

         Interpretation   of Hospital Emergenq Room X-ram” (OEI-02-8901490)


         Bvan B. Mitchell

         P*@al   Deputy Inspectrx General



                We reviewed the draft inspection report which evaluates the appropriateness            of
         Medicare reimbursement for radiologists’ interpretations of x-rays which have been
         previously interpreted by hospital emergenq room (ER) physicians.

                 OIG recommends that the Health Care Financing Administration (HmA) pay
         for Teinterpretatinns of x-rays only when the ER physician specifically requests a
         second physician’s interpretation in order to render appropriate medical care to the
         patient before discharge. Any other reinterpretation  should be treated ad
         reimbursed as part of the hospital’s cpali~ assurance program.

                  HCFA defers comment on the recommendation pending OIG clarification of
          several concerns outlined in the attachment. Once this information is provided, we
          will consider presenting OIG’S findings and recommendation to the HCFA Technology
          Advisory Committee for their evaluation and comment.

                Thank ynu for the oppcntuni~      to review and mrnrnent on this report.

          Attachment




                                                                 .
                                             .,




                                                                                                            .



                                                                                             dz?$

            Ctmnrnents of the Health Care Financing Administration fF?CFA)

                     on the Office of Insuector General (OIGl Draft

                      Audit Reuort: Medicare’s Reimbursement for

                  Interpretations of HosDital Emereencv Room X-ram

                                    (OEI-02-89-0149Q



Recommendation    1

HCFA should pay for reinterpretations       of x-rays only when attending phyicians
-W           =q~es ~ *ti       physician!! interpretation in order to render appmpria$e
medical care before the patient is discharged. Any other reinterpretation      of the
attending physician’s original interpretation should be treated and reimbursed as part of
the hospital’s quality assurance program. HCFA should implement this recommendation
through either regulation or by seeidng legislation as appropriate.

HCFA Resuonse

HCFA defers comment on the recommendation        pending receipt of DIG dadicztion      ~f
sewzral &cmuems outlined below

       o	     We are concerned about whether all x-rays ordered for ER patients were
              medically necessary. It is not clear fkom the report if OIG considered this
              factor. If the x-rays were not needed, it is not likely that either the ER
              physician or the radiologist would have identified any medical problem
              when reading the x-rays. (See Coverage Issues Manual section 50-28 for
              the medical necessity guidelines that contractors are expected to apply-to
              diagnostic procedures, such as chest x-rays, upon admission to the hospital.)

       o      Additionally, it is not clear if OIG examined the possibility that copies of
              radiologists’ written interpretations were forwarded to the patients’
              attending physicians with offices outside of the hospital (for exarnpl%
              general practice physicians or orthopedists) rather than to the ER
              physicians who initially treated the patient. We understand that many
              hosnitals discourage ER patients from returning to those facilities to
              rec&ve the resulti-of the~ x-rays after they ha~ been discharged and that
              many radiologists send copies of their written interpretations directly to the
              attending physicians rather than the ER physicians.
                . .
Upon receipt of this additional information, we will consider presenting OK’S ~dings

and recommendation to the HCFA Technology Advisory Committee for thefi ewduation

and comment.


 Prior to the development of the current policy in the Medicare Carrier Manual (MCM)

 section 2020G, Medicare paid for the most meaningful x-ray interpretation

 that was done for ER patients. The result was an administrative nightmare because of

Page 2

the various competing Nfedicaw claims for payment and the difficulty in deciding which
interpretation Setices were reasonable and necessary for the patient.

Currently, MCM section 2020G provides that “when a hospital radiologist interprets an
x-ray that has already been interpreted by another physic-        that interpretative sewic.e
almost always constitutes patient care an~ thus, would also qual& as a physician’s
setice.”   The only situations in which a radiologist’s interpretation of an ER x-ray is not
covered under Medicare is: (1) where the ordering of the x-ray was not medically
necessary in the first pl~   and [2) where the patient died before & Merpnetation was
performed. This policy is based on the assumption that it is the radiologist who is the
recognized medical expert in reading x-rays and that x-rays appropriately ordered for ER
patients should be read by such experts. In addition, our current policy is based on the
assumption that the qualifications of the interpreting physician are more important than
the exact timing of the interpretation in determining whether a substantive physician
semice has been provided that can be billed separately under the program.

We see several limitations to OIGS recommendation.       If as OIG sugges~ we limit
coverage of ~adiologists’ x--y interpretation m &e ER &ming to those performed before
patients are discharged, such practice would discriminate against small- and medium-s=
hospitals. Such hospitals do not have radiologists available .24 hcmrs a day ~ is the +case
at large urban hospitals.

Additionally, we would like to point out that it would be difficult to enforce OIGS
recommended policy on a prepayment basis since the information required to make
payment (i.e., whether the interpretation of the x-ray was specifically requested by the
ER physician) is not captured on the physician’s billing form. Currently, the only way to
determine whether the ER physician requested the specialist’s reinterpretation    is to look
at the medical records.

 %nilarly, the issue of bundling electrocardiogram interpretations into medical visits was a
 policy change enacted by the OmniiUS Budget Reconciliation Act (OBRA) of 1990.
 Given the controversy about that provision, particularly the disproportionate   effects by
 specialty, it is likely to be ?epeal~d by Congress It appears highly doubtful that we
 would have much success in persuading Congress to reenact a similar proposaL

 Lastly, we are concerned with OIG’S savings estimate of $20 million. It appears that this
 projection assumes that Medicare would not pay the ER physicians for interpretations if
 there were no payment to the radiologist. We do not believe that the recommendation
 would achieve this result since it does not appear that OIG has taken into account the
 offsetting costs that would probably result from the demands of ER physicians for higher
 payments for their interpretation sewices. It is highly probable that ER physicians would
 argue that they dese~e separate coverage and payment for their interpretation semkes if
 they, rather than the radiologists, are determined to be legally responsl%le to the
 hospitals and patients (as well as the Medicare program) for providing these sefices.
                            APPENDIX                    B

          PROJECTED SAVINGS FOR 38 SAMPLED HCPCS CODES
                                     1990 Allowed OPD Amounts                   1990 ER Savings
Carrier-Sample                    All X-Rays            Studied X-Rays             Projection
FLORIDA BS
                          $11,023,700               $4,001,500             $1,344,378
IOWA BS
                              $1,933,100                 $391,800                  $189,173
MICHIGAN BS
                          $8,339,200               $2,739,600                  $973,721
MASS BS FOR NH/VT
                    $1,162,900                 $219,100                  $120,225
PA BS FOR NJ
                         $5,347,600               $1,859,800                  $592,422
PENN BS-FIRST
                       $15,040,300               $4,681,700             $1,734,855
PENN BS-SECOND
                      $15,040,300               $4,681,700             $1,515,649
EQUITABLE IDAHO
                         $477,400                $129,200                   $41,468
NW OHIO-FIRST
                        $9,422,100               $3,034,800             $1,322,389
NW OHIO-SECOND
                       $9,422,100               $3,034,800             $1,196,953
      National Total                $174,953,900              $53,912,000            $20,371,162

      The projected national savings were calculated using standard statistical formulas
      for a two-stage cluster sample and are not the sum of the 10 samples from the
      carriers.




                                           B-1
               APPENDIX               C




                           CONFIDENCE INTERVALS FOR
                              SAVINGS PROJECTIONS     $20,371,162
90 % Confidence Interval                  Precision         8.16%
                                           Lower      $18,708,726
                                           Upper      $22,033,599
95 % Confidence Interval                  Precision         9.72%
                                           Lower      $18,390,387




                             c-1
